WAIVER

SUPREME COURT OF THE UNITED STATES

No. (21-16 |
\Robert Paul Magtulis Cledera | ‘United States, et al.
(Petitioner) Vv. (Respondent)

1 DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
oO lam filing this waiver on behalf of all respondents.

© Tonly represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Wal-Mart, Inc.

Please check the appropriate box:

© Iam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO Tam not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

Signature: Qdite Da |

Date: | 6-5s-Y

(Type or print) Name |yichelle E. Roberson ert
© mr. © Ms. © Mrs. O Miss a

Firm Cooper & Scully, P.C.

Address {900 Jackson Street, Suite 100

City&State Dalla, TX | Zip (75202 i]

Phone 214.712.9500 | Email michelle.robberson@cooperscully.com |

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Robert Cledera, Pro Se Petitioner, and other counsel of record.
ce:
